    Report No. D2007-036       December 27, 2006




Report on Contracting Practices at the Major Range
             and Test Facilities Base
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
ATC                   Aberdeen Test Center
COR                   Contracting Officer Representative
CPAF                  Cost-Plus-Award-Fee
CPFF                  Cost-Plus-Fixed-Fee
CPIF                  Cost-Plus-Incentive-Fee
DTRMC                 Defense Test Resource Management Center
FAR                   Federal Acquisition Regulation
GAO                   Government Accountability Office
FFP                   Firm-Fixed-Price
IG                    Inspector General
IGCE                  Independent Government Cost Estimate
MRTFB                 Major Range and Test Facilities Base
T&M                   Time and Materials
               Department of Defense Office of Inspector General
Report No. D-2007-036                                                   December 27, 2006
   (Project No. D2005-D000AB-0223.000)

                Contracting Practices at the Major Range and
                             Test Facilities Base

                                 Executive Summary

Who Should Read This Report and Why? DoD procurement and contracting
personnel involved with contracting at the Major Range and Test Facilities Base should
read this report. The report discusses the need for contracting personnel to improve the
award and administration of Major Range and Test Facilities Base contracts.

Background. The Major Range and Test Facilities Base is a national asset that is sized,
operated, and maintained primarily for DoD test and evaluation support missions, but
may also be available to all users having a valid requirement for its capabilities. The
audit objective was to determine whether contracting officials at the Major Range and
Test Facilities Base complied with the requirements of the Federal Acquisition
Regulation in awarding and administrating service and technical support contracts. We
selected service contracts at three Army, three Navy, and three Air Force locations to
review the award and administration procedures. Our audit included 10 contracts with a
total dollar value of more than $7.6 billion for performance periods from FY 1997
through FY 2015. In March 2004, DoD established the Defense Test Resource
Management Center to plan and assess the adequacy of the Major Range and Test
Facilities Base. The Defense Test Resource Management Center is a DoD field activity
under the authority, direction, and control of the Under Secretary of Defense for
Acquisition, Technology, and Logistics.

Results. Contracting officials did not adequately manage contracts at nine facilities
within the Major Range and Test Facilities Base. Further, the contracting and
procurement personnel needed to implement effective management controls.

We reviewed 10 contracts and determined that all 10 were awarded as cost
reimbursement contracts and had award and administration problems. Specifically,

       •   9 of 10 did not use prior history to define cost estimates or contract type,

       •   9 of 10 had inadequate or missing independent Government cost estimates,
           and

       •   6 of 10 had inadequate or missing surveillance plans.

As a result, the Government accepted increased risk by continuing to use cost
reimbursement contracts without using historical data or developing detailed cost
estimates to shift risks to fixed-price arrangements or improve cost estimating. In
addition, contracting officials did not ensure that adequate surveillance was in place to
mitigate the increased risk. Complying with the Federal Acquisition Regulation and
improving contract surveillance will improve the management and administration of
service and technical contracts. (See the Finding section of the report for the detailed
recommendations.) We also reviewed the managers’ internal controls as they related to
contract administration and oversight for the 10 contracts audited.

Management Comments and Audit Response. The Director, Defense Procurement and
Acquisition Policy, provided comments on behalf of the Office of the Under Secretary of
Defense for Acquisition, Technology, and Logistics. The Director concurred with the
recommendations and stated that his office would issue guidance to reinforce the need to
comply with the Federal Acquisition Regulation.

Although not required to comment, the Army, the Navy, and the Air Force provided
comments on the draft report that generally disagreed with the findings of no
documentation of the use of prior history to define contract type or costs, inadequate
independent Government cost estimates, and inadequate surveillance plans. Summaries
of the Army, Navy, and Air Force comments and audit responses are in Appendixes B, C,
and D.




                                            ii
Table of Contents
Executive Summary                                                                i

Background                                                                       1

Objectives                                                                       2

Review of Internal Controls                                                      2

Finding
     Contract Management and Oversight at the Major Range and Test
        Facilities Base                                                          3

Appendixes
     A. Scope and Methodology                                                   10
         Prior Coverage                                                         10
     B. Department of the Army Comments and Audit Response                      12
     C. Department of the Navy Comments and Audit Response                      17
     D. Department of the Air Force Comments and Audit Response                 22
     E. Report Distribution                                                     24

Management Comments
     Under Secretary of Defense for Acquisition, Technology, and
        Logistics                                                               27
     Assistant Secretary of the Army (Acquisition, Logistics, and Technology)   29
     Department of the Army (Research, Development, and Engineering
        Command)                                                                38
     Department of the Navy (Air Systems Division)                              41
     Department of the Navy (Undersea Warfare Division)                         47
     Department of the Air Force                                                50
Background
    Defense Test Resource Management Center. The Defense Test Resource
    Management Center (DTRMC) was established by DoD Directive 5105.71,
    “Department of Defense Test Resource Management Center (TRMC)” and
    sections 191, 196, and 113, title 10, United States Code, March 8, 2004. The
    DTRMC Director plans for and assesses the ability of the Major Range and Test
    Facilities Base (MRTFB) to provide testing in support of development,
    acquisition, fielding, and sustainment of Defense systems. The DTRMC Director
    maintains awareness of other test and evaluation facilities and resources within
    and outside of the Department, and their impact on DoD requirements.

    The Major Range and Test Facilities Base. The MRTFB is a national asset that
    is sized, operated, and maintained primarily for DoD test and evaluation support
    missions under the oversight of DTRMC, but may also be available to all users
    having a valid requirement for its capabilities. The MRTFB consists of a broad
    base of test and evaluation ranges, which are managed and operated to provide
    test and evaluation support to the DoD Components that are responsible for
    developing or operating material and weapon systems. The mission and tests
    conducted at each of the 19 ranges are very different and, in some cases, unique.
    The missions vary from testing missiles and aircraft to ensuring that electrical
    components can survive in various environments. The test assets include aircraft
    and ships. Some ranges also conduct training exercises. The MRTFB awards
    contracts to obtain various technical and operational services.

    Contract Types. A wide selection of contract types is available to the
    Government and contractors to provide needed flexibility in acquiring the variety
    and volume of supplies and services required by agencies. There are two broad
    categories of contract types: cost reimbursement and fixed price.

    The MRTFB sites that we visited used cost-plus-award-fee (CPAF), cost-plus-
    fixed-fee (CPFF), cost-plus-incentive-fee (CPIF), and time and materials (T&M)
    contracts, which are all cost reimbursement contracts.

    The CPAF contract pays the contractor’s incurred costs and an award fee amount
    based on the Government’s judgmental evaluation of the contractors’
    performance.

    The CPFF contract pays the contractor a negotiated fee that is fixed at the
    inception of the contract. The fixed fee does not vary with actual cost, but may be
    adjusted because of changes in the work performed under the contract.

    The CPIF contract pays the contractor a negotiated fee that is adjusted by a
    formula derived from relationship of the total allowable cost to the total target
    cost. This contract type specifies a target cost, a target fee, minimum fees,
    maximum fees, and a fee adjustment formula.

    The T&M contract acquires supplies or services based on direct labor hours at
    specified fixed hourly rates that include wages, materials, overhead, general and
    administrative expenses, and profit. T&M contracts provide no incentive to the

                                          1
     contractor for cost control or labor efficiency. Therefore, appropriate
     Government surveillance of contractor performance is required.

     Cost reimbursement contracts provide for payment of allowable incurred costs, to
     the extent prescribed in the contract. Cost reimbursement contracts are used in
     situations where requirements are not well-defined. These contracts place more
     risk on the Government because the contractor is reimbursed for all cost and has
     no incentive to control costs. CPAF and CPFF contracts are usually negotiated
     based on the cost estimate. Therefore, detailed Government cost estimates and
     well-defined records of historical data are important for establishing cost control
     and reducing risk. Cost reimbursement contracts are also suitable when
     appropriate Government surveillance during performance will provide reasonable
     assurance that efficient methods and effective cost controls are in place. Use of
     historical data and cost estimates allows the Government to better determine and
     control the cost of services. This information may also allow contracting officials
     to shift the risk to the contractor by using a different type of contract with fixed
     prices for all or part of the services in the contract.

     Firm-fixed-price (FFP) contracts provide a price that is not subject to any
     adjustment on the basis of the contractors’ cost incurred in performing the
     contract. The FFP contract places the maximum risk and full responsibility for
     controlling all cost that may result in a profit or loss on the contractor.
     Consequently, FFP contracts give the contractor the greatest incentive to control
     cost and perform effectively.

Objectives
     The audit objective was to determine whether contracting officials at the Major
     Range and Test Facilities Base complied with the requirements of the Federal
     Acquisition Regulation in awarding and administrating service and technical
     contracts. Also, we reviewed the managers’ internal control programs, as they
     related to the audit objective. See Appendix A for discussion of the scope and
     methodology and for prior coverage related to the objectives.

Review of Internal Controls
     We identified material internal control weaknesses for the 10 contracts audited at
     9 MRTFB sites defined by DoD Instruction 5010.40, “Managers’ Internal Control
     (MIC) Program Procedures,” January 4, 2006. The 10 contracts at the Major
     Range and Test Facilities Base did not have one or both of the following internal
     controls for contract administration and management: contract files that
     contained independent Government cost estimates with accompanying
     documentation to show analyses used, or contract files that contained written
     surveillance plans that included the procedures to follow with measurable
     objectives. Implementing Recommendations 1., 2., and 3. will improve contract
     administration procedures. A copy of the final report will be provided to the
     senior official responsible for internal controls at the nine MRTFB sites and the
     Office of the Under Secretary of Defense for Acquisition, Technology, and
     Logistics.

                                          2
            Contract Management and Oversight at
            the Major Range and Test Facilities Base
            Contracting officials did not adequately manage contracts for three Army,
            three Navy, and three Air Force locations within the MRTFB. We
            reviewed 10 cost reimbursement contracts with a combined value of more
            than $7.6 billion. We found contract award and administration errors in
            all 10 service and technical contracts. Specifically, the contracting
            officers did not:

                •   use prior history to determine contract type or define costs on
                    9 of 10 contracts,

                •   have adequate independent Government cost estimates (IGCEs) on
                    9 of 10 contracts, or

                •   have evidence of adequate surveillance plans and surveillance on
                    6 of 10 contracts.

            These problems occurred because contracting officials did not follow the
            Federal Acquisition Regulation and other best practices for the service
            contracts. As a result, the Government continued to use high-risk cost
            reimbursement contracts without following regulations in place to control
            costs or monitor performance.

Criteria
     Documentation Requirements and Surveillance. FAR 15.406-1(a),
     “Prenegotiation Objectives,” states that the contracting offices are responsible for
     establishing the Government’s initial negotiation position.
     FAR 15.406-1(a) states:
                The prenegotiation objectives establish the Government’s
                initial negotiation position. They assist in the contracting
                officer’s determination of fair and reasonable price. They
                should be based on the results of the contracting officer’s
                analysis of the offeror’s proposal, taking into consideration all
                pertinent information including field pricing assistance, audit
                reports and technical analysis, fact-finding results, independent
                Government cost estimates and price histories.

     FAR Part 16 discusses the types of contracts that may be used in acquisitions.
     FAR 16.301-3(a)(2), “Limitations,” states that cost reimbursement contracts may
     be used only when:

                Appropriate Government surveillance during performance will
                provide reasonable assurance that efficient methods and
                effective cost controls are used.


                                               3
    FAR 46.401(a), “Government Contract Quality Assurance,” states:

                     Quality assurance surveillance plans should be prepared in
                     conjunction with the preparation of the statement of work.
                     The plans should specify--(1) All work requiring surveillance; and
                     (2) The method of surveillance.

Mission Support Contracts Reviewed
    We judgmentally selected 10 cost reimbursement contracts with combined values
    of more than $7.6 billion for mission support at three Army, three Navy, and three
    Air Force test facilities. We reviewed the award and administration information
    including the use of prior history, IGCEs, and surveillance plans on the selected
    contracts. The following table shows a summary of the problems we found in the
    10 contracts.

                         Summary of Problems in Contracts at MRTFBs

                                                                   No                      Inadequate
                                                 Dollar      Documentation    Inadequate    or Missing
                                   Contract       Value       of the Use of   or Missing   Surveillance
           Contract Number          Type        (Millions)    Prior History     IGCEs          Plans
     DAAD05-01-D-0019
     (Aberdeen Test Center)          T&M         $118.2            x              x             x
     DAAD01-99-C-0003
     (Yuma Proving Ground)           CPAF         281.6            x              x
     DAAD07-97-C-0108
     (White Sands Missile Range)     CPAF         333.5            x              x
     N68936-01-D-0036
     (China Lake)                    CPAF         66.4             x              x             x
     N66604-05-C-1277
     (Atlantic Undersea Test and
     Evaluation Center)            CPIF/CPAF      778.7            x              x
     N00421-02-C-3052
     (Patuxent River)                CPFF         281.2            x                            x
     N00421-01-C-0422
     (Patuxent River)                CPFF         147.8            x              x             x
     F40600-03-C-0001
     (Arnold Engineering
     Development Center)             CPAF        2,690.5                          x
     NAS10-99001
     (45th Space Wing)               CPAF        2,188.9           x              x             x
     FA9200-05-C-0001
     (46th Test Wing)                CPAF         752.7            x              x             x

    Use of Prior History. In 9 of the 10 contracts reviewed, there was little or no
    indication that contracting officials examined the information from prior contracts
    to determine contract type or to help define costs for future contracts. Even when
    contractors for these contracts had been performing the same work for many
    years, contracting officers continually awarded these mission support contracts as
    cost reimbursement contracts. Contracting officers could not provide analysis of
    prior history to determine whether all or parts of contracts could be converted to
    fixed price for these services.



                                                  4
For example, in 2002 Navy contracting officials awarded a CPFF contract
N00421-02-C-3052 valued at $281.2 million to DynCorp Corporation for support
services for range activities despite the 23-year history with the same contractor.
The contracting officer’s rationale for this decision was that the services could
only be described in general terms due to the variables inherent in the nature of
the effort. However, the contracting official could not show that he reviewed
whether all or part of the work was suitable for an FFP contract. It is imperative
that contracting officials evaluate prior history data to mitigate the risk to the
Government.

The following figure shows how a lack of defined costs affects preaward and
postaward actions.


                                               Undefined
                                                 Costs




                         Inability To                          Inability To Award
                       Adequately Price                    Firm-Fixed-Price Contracts




                     More Time-Consuming                     More Labor-Intensive
                       Preaward Effort                        Postaward Effort



        Effects of Not Initially Defining Costs

Another example of a contract issued without adequately using historical
information to define requirements was Army contract DAAD05-01-D-0019
valued at $118.2 million. Contracting officials awarded this T&M contract
without documenting the process used when considering prior history to
determine contract type. According to FAR Part 16.601, the T&M contract
provides no positive profit incentive to the contractor for cost control or labor
efficiency. Because T&M contracts may be used only after the contracting officer
determines that no other contract type is suitable, the Army contracting officials at
the very least should have justified why other cost reimbursement contracts would
not have been suitable.

IGCEs. Nine of the 10 contracts had missing or inadequate IGCEs. According to
FAR 15.406-1(a), contracting officials should establish the Government’s initial
negotiation position with the use of various analyses and techniques including the
IGCE. The information gathered should assist contracting officials in deciding
the fairness and reasonableness of proposals received from contractors. This
information is especially important with cost reimbursement contracts because the
contractor has no incentive to control cost and could initially understate cost to
receive the award and eventually be reimbursed for larger amounts. The
“Defense Procurement and Acquisition Policy-Contracting Pricing Reference

                                           5
Guide” (the Guide) provides professional instruction on contract price analysis.
Section 6.1.5, “Independent Government Estimates,” lists the following five steps
for preparing IGCEs:

           1. Determine acquisition costs based on current proposal or other
           estimates.

           2. Assure Government requirement documents reflect the minimum
           needs of the Government.

           3. Identify alternative products or methods of meeting the minimum
           needs of the Government. (the key step in the analysis)

           4. Estimate the costs associated with alternative products or methods
           that would meet the minimum needs of the Government.
           5. Document the reasonableness of the current prices or recommend
           appropriate change and ensure that the process and results of the value
           analysis are clearly documented and included a copy of the
           documentation in the contract file. When you are sure that the value
           received support the offered price, use that information to support
           price reasonableness. When you are not satisfied, use the information
           to document efforts to bring price in line with perceived value.

The Guide cautions against the reliance on IGCEs that originate with an offeror,
that are a sheer guess, or that are derived simply by using past contract prices.
According to the Guide, past contract prices should be analyzed in the same way
as other historical prices.

Although FAR 15.404-1(7) lists reference material such as the Guide, contracting
officials for 9 of the 10 contract files had incomplete or missing IGCEs. The
estimates lacked detail, did not have documentation of the value analysis, and in
some cases were prepared by using an actual prior year contract price and
inflating the amount by a set percentage for as many as 15 years into the future.
Because all of the contracts were cost reimbursement contracts, the contracting
officer should have devoted the time necessary to establish reliable and well-
supported cost estimates to achieve the best price for the Government.

CPAF Air Force contract F40600-03-C-0001 for $2.7 billion for base operations
is an example of a contract for which the contracting officer did not include
adequate cost analysis. The contracting officer used actual FY 2002 costs from
two former contracts and adjusted it for management overhead, workload, and
maintenance backlog. The contracting officer then inflated the costs by
3 percent each year for the 12-year term of the contract if all options are
exercised. On the 2005 CPAF Air Force contract FA9200-05-C-0001 for
$752.7 million, contracting officials followed a similar process in preparing the
IGCE.

An Army official used a similar process in awarding contract DAAD01-99-C-
0003 for $281.6 million that has an incomplete IGCE. To prepare the IGCE, the


                                     6
    contracting official used FY 1998 contract price as the starting point and inflated
    other amounts 2.5 percent per year over 7 years.

    We did identify an instance when the Navy devoted time and effort to develop a
    good cost estimate. For CPFF Navy contract N00421-02-C-3052 for
    $281.2 million, contracting officials prepared a detailed IGCE and provided
    documentation of the analysis performed. The contracting official for this
    contract compiled numerous spreadsheets to calculate the cost for the various
    categories in this contract. The spreadsheets documented the process and analysis
    used to create the IGCE. Although the contracting official for that Navy contract
    showed diligence in preparing the IGCE, contracting officials for CPFF Navy
    contract N00421-01-C-0422 could not provide an IGCE and other pertinent cost
    analysis documents.

    Surveillance Plans. Cost reimbursement contracts need more surveillance than
    FFP contracts because cost reimbursement contracts do not provide incentives to
    control cost. FAR 16.301(3)(a)2 indicates that cost reimbursement contracts can
    be used for acquisitions, but appropriate Government surveillance is required.
    FAR 46.401(a) states that quality assurance surveillance plans should be prepared
    in conjunction with the statement of work and should indicate which work
    requires surveillance and which type of surveillance will be performed.
    Contracting officials should also document the type and amount of surveillance
    conducted. Although surveillance was required, contracting officials either could
    not provide plans or had not updated plans for the specific circumstances of the
    contract services for 6 of the 10 contracts reviewed.

    In T&M Army contract DAAD05-01-D-0019 valued at $118.2 million,
    contracting officials used a generic surveillance plan that was used for other
    contracts without tailoring it to the specific needs of the T&M contract. A current
    plan should have been developed for the circumstances and the risk associated
    with that contract. The surveillance plan used for contract DAAD05-01-D-0019
    was inadequate because it did not indicate the work requiring surveillance or the
    type of surveillance that should be performed.

Conclusion
    Contracting officials did not perform adequate contract award and administration
    procedures on 10 contracts valued at more than $7.6 billion. Without adequate
    contract administration and surveillance, contractors had no incentive to control
    costs. All 10 contracts audited did not meet the requirements of the FAR.
    Contracting officials did not have evidence that they used prior history to
    determine contract type or to help define costs. Also, contracting officials used
    little or no analysis in preparing IGCEs. The IGCEs are the base on which
    contracting officials should evaluate proposals received from contractors.
    Without proper analysis, the Government is at risk of spending more than
    necessary to conduct business and must rely more on time-consuming
    surveillance.

    The MRTFB should use historical data to determine if portions of the cost
    reimbursement contracts can be converted to FFP work. For work that cannot be

                                         7
    converted to FFP, contracting officials must perform better analyses to develop
    adequate IGCEs and should devote sufficient resources to surveillance.

Management Comments on the Finding and Audit Response
    Defense Procurement and Acquisition Policy Comments on the Finding. The
    Director, Defense Procurement and Acquisition Policy, provided comments for
    the Office of the Under Secretary of Defense for Acquisition, Technology, and
    Logistics. The Director stated that he found no systemic contract award or
    administration problems at DoD major range and test facilities, but that it would
    be constructive to reinforce guidance to DoD and Military Department MRTFB
    field commands.

    Unsolicited Management Comments and Audit Response. Although not
    required to comment the Army, the Navy, and Air Force provided comments to
    the draft report. We received comments from the Office of the Assistant
    Secretary of the Army (Acquisition, Logistics and Technology); the United States
    Army Research, Development, and Engineering Command Acquisition Center;
    the Inspector General, Naval Air Systems Command; the Naval Undersea
    Warfare Center Division Newport; and the Department of the Air Force,
    Headquarters. The Military Services commented on the use of history to define
    contract type and cost, characterization of the independent Government cost
    estimates, and the existence and adequacy of the surveillance plans. The
    complete text of the management comments is in the Management Comments
    section of this report. Summaries of Army, Navy, and Air Force comments on the
    finding and our responses are in Appendixes B, C, and D.

Recommendations, Management Comments, and Audit
  Response
    We recommend that the Under Secretary of Defense for Acquisition,
    Technology, and Logistics:
            1. Issue guidance to the commanders of the Major Range and Test
    Facilities Base to comply with Federal Acquisition Regulation 15.406-1(a) by
    reviewing prior history to determine contract type and to define costs with
    well supported independent Government cost estimates to ensure that the
    Government receives the best value on cost reimbursement contracts.

            2. Issue guidance to commanders of the Major Range and Test
    Facilities Base to comply with Federal Acquisition Regulation 46.401(a) by
    preparing adequate surveillance plans prior to awarding a cost type contract
    in order to facilitate Government surveillance during the contract term.

    Office of the Under Secretary of Defense for Acquisition, Technology, and
    Logistics Comments. The Director, Defense Procurement and Acquisition
    Policy, provided comments on behalf of the Office of the Under Secretary of
    Defense for Acquisition, Technology, and Logistics. The Director concurred with

                                        8
the recommendations and stated that his office would issue guidance to reinforce
the need to comply with the Federal Acquisition Regulation.

Army Comments. Although not required to comment, the Acting Director of the
Army Contracting Agency provided comments for the Assistant Secretary of the
Army (Acquisition, Logistics, and Technology). The Acting Director agreed with
the recommendations.

Air Force Comments on the Recommendations. Although not required to
comment, the Air Force stated that Recommendations 1. and 2. should be
redirected to the Service Secretaries to direct the Program Offices regarding
specific acquisition strategies. The Air Force stated that selecting and approving
contract type is a complex process that and goes up the entire acquisition chain to
the Secretary of the Air Force prior to contract award.
Audit Response. We agree that Recommendations 1. and 2. should be made at a
higher level and hence directed our recommendations to the Under Secretary of
Defense for Acquisition, Technology, and Logistics. We agree that the Service
Secretaries, as appropriate, should continue to advise Program Offices about the
specific acquisition strategies. We continue to believe that at the Command-level,
contracting officials should comply with the Federal Acquisition Regulation by
reviewing prior history and preparing well supported independent Government
cost estimates to aid the Service Secretaries in the process of determining contract
type.

        3. Issue guidance to commanders of the Major Range and Test
Facilities Base to comply with Federal Acquisition Regulation 16.301-3(a)(2)
by reviewing the surveillance plans for contracts already awarded to
determine whether the surveillance is providing reasonable assurance that
contractors are using efficient and effective cost controls.

Office of the Under Secretary of Defense for Acquisition, Technology, and
Logistics Comments. The Director, Defense Procurement and Acquisition
Policy, provided comments on the behalf of the Office of the Under Secretary of
Defense for Acquisition, Technology, and Logistics. The Director concurred.

Air Force Comments. Although not required to comment, the Director, Test and
Evaluation agreed with the recommendation and stated that once any contract is
awarded, it is crucial that cost performance be monitored.




                                     9
Appendix A. Scope and Methodology
      This audit was conducted at the Office of the Director, Operational and Test
      Evaluation and the Major Range and Test Facilities Base (MRTFB). We visited 9
      of the 19 MRTFBs. The 10 major contracts we selected for review were located
      at three Army, three Navy, and three Air Force MRTFBs, which are as follows:
      Aberdeen Proving Ground; White Sands Missile Range; Yuma Proving Ground;
      Naval Warfare Center, China Lake; Naval Warfare Center, Patuxent River;
      Atlantic Undersea Test and Evaluation Center; Arnold Engineering Development
      Center; 45th Space Wing; and the Air Armament Center/46th Test Wing. We
      examined surveillance plans, statements of work, technical evaluations, price
      negotiation memorandums, source selection decisions, Government cost
      estimates, award fees evaluation plans, and other miscellaneous correspondence
      dated from 1997 through 2005. The 10 service and technical contracts reviewed
      have a combined estimated value of more than $7.6 billion and were awarded
      from 1997 through 2005. Due to time constraints, we judgmentally selected the
      contracts from lists and information provided by contracting officials.

      We performed this audit from June 2005 through June 2006 in accordance with
      generally accepted government auditing standards.

      We reviewed internal controls pertaining only to the contract administration and
      management of the 10 contracted audited at the 9 MRTFB sites. We found
      contract administration and award errors at those sites.

      Use of Computer-Processed Data. We did not use computer-processed data to
      perform this audit.

      Government Accountability Office High-Risk Area. The Government
      Accountability Office (GAO) has identified several high-risk areas in DoD. This
      report provides coverage of the high-risk area “DoD Contract Management.”

Prior Coverage
      During the last 5 years, GAO and the Department of Defense Inspector General
      (DoD IG) have issued four reports discussing contracting administration and
      award practices on cost reimbursement contracts. Unrestricted GAO reports can
      be accessed over the Internet at http://www.gao.gov. Unrestricted DoD IG reports
      can be accessed at http://www.dodig.mil/audit/reports.

GAO
      GAO Report No. GAO-04-854, “Military Operations: DOD’s Extensive Use of
      Logistics Support Contracts Requires Strengthened Oversight,” July 19, 2004




                                          10
DoD IG
    DoD IG Report No. D-2004-110, “The Military Departments’ Implementation of
    Performance-Based Logistics in Support of Weapons Systems,” August 23, 2004

    DoD IG Report No. D2004-015, “Contracts for Professional, Administrative, and
    Management Support Services,” October 31, 2003

    DoD IG Report No. D2003-099, “Service Contracts at the National Imagery and
    Mapping Agency,” June 6, 2003




                                      11
Appendix B. Department of the Army Comments
            and Audit Response
     Although not required to comment, the Acting Director, Army Contracting
     Agency (Acting Director) provided comments on behalf of the Assistant Secretary
     of the Army (Acquisition, Logistics, and Technology) and the Chief, Combat
     Operations Branch (the Chief) provided comments for the United States Army
     Research, Development, and Engineering Command Acquisition Center.
     Summaries of the draft report comments and our response follow. The complete
     text of these comments is in the Management Comments section of this report.

Assistant Secretary of the Army (Acquisition, Logistics, and
  Technology) Comments on Overall Report and Audit
  Response
     Army Comments on the OIG Audit Process. The Acting Director stated that
     Directorates of Contracting at the White Sands Missile Range, New Mexico, and
     the Yuma Proving Ground, Arizona, were not afforded an opportunity to address
     interim findings made in the draft report relating to contracts DAAD01-99-C-
     0003 and DAAD07-97-C-0108.

     Audit Response. The OIG auditors provided the appropriate White Sands
     Missile Range and Yuma Proving Ground management personnel exit
     conferences prior to the conclusion of the respective audit site visits. The audit
     teams noted at both exit conferences that they had not fully analyzed the
     contracting data obtained during the visits and would complete the analyses at the
     auditors home office. Thus, the auditors were not able to address any interim
     findings during the exit conferences. The audit finding and recommendations
     were briefed to the Office of the Under Secretary of Defense for Acquisition,
     Technology, and Logistics. The Military Services were not briefed on the report
     as no recommendations were directed to them.

     Army Comments on Adequacy of Management Controls. The Acting Director
     believed that the materiality of the draft report finding was less than a reportable
     material weakness because the stated effects of the finding were speculative rather
     than concrete in that the Government was at risk of spending more than necessary
     to conduct business. The Acting Director also stated that report recommendations
     did not seem to support material weaknesses as the recommendations did not
     request the recovery of excessive costs or the change of contract types.

     Audit Response. Based on the Army comments, we revised the discussion of the
     adequacy of management controls in the final report. The report now states that
     the material weakness existed for the 10 contracts discussed in the finding but did
     not extend to the 9 MRTFBs reviewed because we reviewed only one contract at
     each of 8 MRTFB sites and 2 contracts at one MRTFB site. Although the review
     was limited to these 10 contracts, the dollar amount associated with these


                                         12
contracts was material. We believe that a lack of controls over $7.6 billion
constituted a severe control weakness.

Army Comments on Contract DAAD01-99-C-0003. The Acting Director
disagreed with the draft report finding that contract DAAD01-99-C-0003 had an
inadequate IGCE and that contracting officials did not use prior history to
determine contract type or define costs. The Acting Director stated that the
contracting officer for that contract did use and analyze prior history to ascertain
contract type, define costs, and decide whether all or parts of the contract could be
converted to fixed price. The Acting Director stated the contracting officer prior
history analyses were documented in an October 31, 1998, cost realism analysis
used to ascertain contract type. The cost realism analyses were based on costs
incurred under 10 then-current separate contracts. The Acting Director stated that
a cost contract was not chosen because the previous contract was a cost contract,
but was chosen to meet Yuma Proving Ground requirements. The Acting
Director believed that Yuma Proving Ground built flexibility into the contract to
allow for quick reactive changes such as those that later occurred in the Global
War on Terrorism.

The Acting Director stated that the IGCE met FAR requirements and detailed
18 cost categories for 82 work functions. The Army stated that the contracting
officer used the IGCE to decide the fairness and reasonableness of proposals. The
Army disagreed with a draft report statement that the IGCE was merely the
FY 1998 contract amount inflated by 2.5 percent per year. The Acting Director
stated the IGCE was prepared on the same basis as the cost realism analysis and
although not specifically noted in the IGCE, Yuma Proving Ground officials
stated they derived hourly labor costs for projected workload levels based on
Department of Labor Annual Wage Determinations for Government service
contracts. Future year hourly labor costs were forecasted using a projected
2.5-percent increase in future Annual Wage Determinations. The Acting Director
stated the strategy was designed specifically to prevent potential contractors from
understating costs to receive the award and eventually being reimbursed for larger
amounts. The Acting Director also stated that the Army Contracting Agency
evaluated Yuma Proving Ground controls for contract administration through a
May 18, 2005, memorandum, “Management Control Evaluation Certification
Statement,” and through a management control checklist. The Army Contracting
Agency found no weaknesses and noted that IGCEs appeared reasonably accurate
and complete.

Audit Response. The cost realism analysis, the acquisition plan, and the award
determinations did not account for the impact on labor overheads, other direct
cost, general and administrative costs, and fees from the consolidation of the 10
then-current contracts. Specifically, it is not prudent to use information from prior
contracts with multiple contractors without considering the effect of consolidation
on the overall cost. Estimated costs were based on cost being incurred under the
current contracts, with labor costs escalated by 2.5 percent per year and other
costs escalated by 1.5 percent per year. The cost realism also did not account for
factors such as market conditions and technology. Even though Yuma Proving
Ground support contracts trace back 30 years, prior contract historical information
was not used to better define requirements, determine fluctuation in workload, or
allow certain parts of the contract to be FFP. With 30 years of history, a detailed


                                     13
analysis of all the contract tasks should have revealed areas where the contract
could be FFP to reduce the risks associated with cost contracts. This is important
especially in light of the lack of resources available to conduct the surveillance.
Although the contracting officials consider the IGCE for contract DAAD01-99-C-
0003 to be complete, there was no indication that contracting officials evaluated
how the estimate was made, what assumptions were made, what information and
tools were used, and where the information was obtained. There was no
indication in the contract files supporting the performance of key analysis factors
such as comparability of the 10 existing contracts or evaluation of the 10 existing
contractor estimating systems or methods. Although we found internal control
weaknesses on contract DAAD01-99-C-0003, we made no conclusion about
contracting internal controls at Yuma Proving Ground based on the review of a
single contract.

Army Comments on Contract DAAD07-97-C-0108. The Acting Director
disagreed with the draft report finding that contract DAAD07-97-C-0108 had an
inadequate IGCE and did not have a quality assurance surveillance plan. He also
disagreed that contracting officials did not use prior history to determine contract
type or define costs. The Acting Director stated contract DAAD07-97-C-0108
was a consolidation of nine separate contacts, and prior to consolidation,
contracting personnel prepared a detailed cost benefit analysis of the potential
contract types and the costs involved. The Acting Director stated that the contract
file documented why the selected type of contract was appropriate. The Acting
Director stated that a fixed-price contract was inappropriate because of the
Army’s inability to forecast a workload in the testing arena. The Acting Director
stated the contract file contained a 32-page IGCE detailing labor costs, overhead,
other direct costs, and fees. The Acting Director stated the then-current contract
was a good place to begin the IGCE because it had the latest cost data using
current wage determinations, overhead rates, and staffing levels. The Acting
Director stated that contract DAAD07-97-C-0108 was awarded in March 1997,
prior to the October 1997 effective date for FAR 46.401(a). (FAR 46.401(a)
requires that quality assurance plans be prepared with the statement of work and
that they specify the tasks requiring surveillance and the methods of surveillance
used.) The Acting Director stated the contract did contain inspection clauses for
cost contracts and that Government personnel prepared a semi-annual rating to
evaluate the award fee. The Acting Director stated that as part of the White Sands
annual internal control assessment, contracting personnel completed functional
area checklists required by the FY 2005 Army FAR Supplement.

Audit Response. We agree that contract DAAD07-97-C-0108 is a combination
of nine separate test and evaluation support service contracts. As such, the
analysis should have included a detailed review of the effects of consolidating
various contract costs, rates, and functions into a single contract. The Army’s
rationale for restructuring to a single flexible contract was to maintain and cross-
utilize a more stable testing workforce and eliminate duplicate facilities. That
rationale contradicts the Army’s reasoning for using a cost-plus-award-fee
contract. The Acting Director stated that the workloads are too unpredictable;
thus a fixed-price contract was inappropriate. As a general rule, we found similar
justifications that used blanket statements that work was too unpredictable. A
workforce of cross-trained personnel allows the contractor to make adjustments
for workload. The experience gained from the previous contracts along with


                                     14
    clearly defined requirements facilitates using fixed-price contracting, which
    results in significant efficiencies including reduced oversight.

    Although the Army considered the IGCE for contract DAAD07-97-C-0108 to be
    complete, there was no evidence demonstrating how the IGCE was prepared or
    that contracting officials validated IGCE assumptions for using the current cost-
    type contract as the basis for the estimate. Based on the Army comments about
    the effective date of FAR 46.401(a), we revised the report to note that contract
    DAAD07-97-C-0108 was not required to have a quality assurance surveillance
    plan. We reviewed White Sands’ internal controls relating to DAAD07-97-C-
    0108. Although we found internal control weaknesses on contract DAAD07-97-
    C-0108, which was a material contract, we made no conclusion regarding overall
    contracting internal controls at White Sands Missile Range based on the review of
    a single contract.

The United States Army Research, Development, and
  Engineering Command Acquisition Center Comments and
  Audit Response
    Army Comments on Contract DAAD05-01-D-0019. The Chief, Combat
    Operations Branch, disagreed with the draft report finding that contract DAAD05-
    01-D-0019 had an inadequate IGCE and did not have a quality assurance
    surveillance plan. She also disagreed that contracting officials did not use prior
    history to determine contract type or define costs. The Chief stated that the
    Aberdeen Test Center (ATC) used historical data and projected requirements to
    develop an IGCE dated August 25, 2000. Historical data included prior, current,
    and projected end strength, and labor rates computed based on Department of
    Labor Wage Determinations. The Chief stated that an ATC analysis was
    performed prior to award of contract DAAD05-01-D-0019 for Test Support
    Services, but that ATC could not accurately predict test extent, duration, or costs
    due to changing testing environment. Therefore, a T&M contract was the only
    suitable contract type. The Chief stated that a June 23, 2000, surveillance plan
    provided a detailed process for monitoring and ensuring efficient contract
    performance, and was a key factor in controlling contract costs. The Chief also
    noted that the surveillance plan delineated contract tasks requiring surveillance
    through a surveillance activity checklist. Any shortfalls were forwarded to the
    contracting officer within 5 working days for action. The Chief further stated that
    ATC appointed a contracting officer’s representative for each cost center
    supported by the surveillance plan.

    Audit Response. Contract DAA05-01-D-0019 was for follow-on requirements to
    previous T&M contracts originating at least 5 years earlier. We found little
    indication that contracting officials had examined information from the prior
    contracts to better define requirements. An ATC cost realism review of the final
    contractor cost proposal stated that the cost and price risk associated with the
    contract was judged very low due to the solicitation being a follow-on effort. The
    realism review noted that the contract requirements were known with a high
    degree of certainty. We concluded that the experience gained on the prior
    contracts could have served as a basis for ATC to reasonably price similar follow-


                                        15
on efforts on a fixed-price basis through the use of performance-based
specifications.

We found no indication in files for contract DAAD05-01-D-0019 that ATC used
historical data and projected requirements to develop the August 25, 2000, IGCE
or to define the requirements and costs for follow-on contracts. The IGCE was
unsigned and consisted only of labor categories, labor rates, and labor hours, with
no explanation of how the program office determined those amounts. The
amounts for the IGCE labor hours, materials, travel, training, and facility charges
were mandated in the solicitation and therefore were not subject to estimation by
the bidders. Because T&M contracts are the least preferred type of contract and
the contracting officer had years of historical data, it seems unlikely that even a
normal cost contract could not be used. Although some testing may not be
entirely predictable, an in-depth analysis of the controls might have yielded
opportunities for FFP work that would mitigate the need for time-consuming
surveillance.

Although the surveillance plan dated June 23, 2000, included some of the tasks
from the statement of work, the plan did not include measurable inspection and
acceptance criteria corresponding to the statement of work. The surveillance plan
provided no indication of the types or frequency of reviews of contractor cost. An
adequate surveillance plan should provide the foundation for comprehensive and
systematic monitoring of contractor performance and a standard against which
actual surveillance efforts could be measured. The lack of an adequate
surveillance plan subjected the Government to greater risk that the contractor may
not perform all contractual requirements in accordance with the contract terms.




                                    16
Appendix C. Department of the Navy Comments
            and Audit Response
    Although not required to comment, the Inspector General, Naval Air Systems
    Command (Inspector General), and the Program Manager, Naval Undersea
    Warfare Center Division (Program Manager) provided comments. Summaries of
    their comments and our response follow. The complete text of these comments is
    in the Management Comments section of this report.

Inspector General, Naval Air Systems Command Comments
  on the Finding and Audit Response
    Navy Comments on Contract N00421-02-C-3052. The Inspector General did
    not agree with draft report finding that the contracting officer did not use prior
    history to determine contract type. The Inspector General stated that although
    there is a long history with the same contractor, this and previous contracts were
    competed. The Inspector General did not believe that the type of contractual
    effort allowed for firm-fixed pricing because the type and amount of work was
    not static. The number and types of tests, platforms to be tested, and the
    equipment to be tested changed too frequently.

    Although the Inspector General agreed that contract N00421-02-C-3052 did not
    contain a surveillance plan, he believed the lack of a surveillance plan should not
    be construed as a lack of surveillance. The contract was reviewed for quality and
    contract compliance. The Inspector General stated that the contracting officer’s
    representative analyzed contractor-provided contract data and requirements list
    reports covering performance and cost, accidents and incidents, recommended
    maintenance, equipment inventory, and contractor payroll. The Inspector General
    noted that the contracting officer’s representative reviewed weekly contractor
    invoices for discrepancies and documented weekly meetings between
    Government oversight personnel and contractor management.

    Audit Response. We are not convinced that a CPFF contract was the most
    appropriate contract type. Because the Navy had 23 years of historical cost and
    performance data with the same contractor, contracting officials could have
    performed analysis to identify at least portions of the current requirement for base
    operation support that could have been fixed-price. Instead, the Navy used the
    same CPFF type contract as the original effort. The fact that the cost contract
    continued to be competed when the contract remained with the contractor for 23
    years raises questions about the competition. The Navy’s assertion that the work
    could not be defined was based on the same premise as the argument of other
    contracting officers that did not perform detailed reviews.

    Adequate contract oversight consists of the requiring activity creating a
    surveillance plan of a contractor’s performance and costs and is based on the
    complexity of each contract. Then the requiring activity must perform
    surveillance in accordance with the surveillance plan. Without a surveillance plan


                                         17
prepared by the requiring activity, neither contracting personnel nor oversight
officials can determine whether contract monitoring efforts are sufficient or
whether the steps involved are adequate and justified. In addition, if Government
oversight personnel turnover occurs, no uniform historical document of the
surveillance efforts will be available for review. Also, the Navy response
discusses the review of various documentation as surveillance, though they
offered no evidence to support any detailed surveillance of actual work the
contractor performed. On a cost contract, it is imperative to perform detailed
surveillance of contract staff at work to ensure that tasks are performed by the
appropriate level and quality of staff because the contractor has no incentive to
control costs.

Navy Comments on Contract N00421-01-C-0422. The Naval Air Systems
Command Inspector General did not agree with the draft report finding that prior
history was not used during the acquisition planning for contract N00421-01-C-
0422. He also did not agree that prior history should be used to determine
whether all or parts of the contract could be converted to an FFP contract. The
Inspector General stated that the contract acquisition plan provided a historical
summary including a statement on forward trends based on the current
environment, the estimated procurement costs, contract type considerations, and a
summary of IGCE information. The Inspector General agreed with a draft report
conclusion that contract N00421-01-C-0422 did not have a quality assurance
surveillance plan, but believed the lack of a surveillance plan should not be
construed as a lack of surveillance. The contract was reviewed for quality and
contract compliance.

Audit Response. We agree that the contract acquisition plan contained a
historical summary of the forward trends, procurement costs, and contract type
considerations. However, the acquisition plan did not provide supporting data
regarding the historical analysis or the contract type considerations. The
acquisition plan stated that the division had nearly 20 years of experience, but did
not indicate how the experience was used to determine the contract type or costs.
For example, the acquisition plan described estimated costs at $100,000, which
consisted of labor costs of $50,000, travel costs of $2,000, and material costs of
$48,000. The cost estimate was based on a performance from a previous contract
with 4-percent per year “scaling” to account for inflation. The approach did not
analyze costs associated with alternative methods of meeting the Government’s
minimum requirements, market conditions, or potential technological
advancement. As noted previously in the audit response regarding contract
N00421-02-C-3052, without a surveillance plan prepared by the requiring
activity, neither contracting personnel nor oversight officials can determine
whether contract monitoring efforts are sufficient or whether the steps involved
are adequate and justified.

Navy Comments on Contract N68936-01-D-0036. The Inspector General
partially agreed with the finding that the contracting officer did not use prior
history to determine contract type or define costs. However, he disagreed with
the finding that the contract had an inadequate IGCE, and did not have a quality
assurance surveillance plan. The Inspector General stated that the business
clearance memorandum identified the contract type basis and noted the work
involved a degree of uncertainty. Thus, it was not practical to use an FFP


                                     18
    contract. The Inspector General also stated the Naval Air Warfare Center
    Weapons Division developed an IGCE with well-defined labor categories and
    material estimates, but, did not include explanatory narrative or an analysis of
    how applicable information from prior contracts was used to develop the estimate.

    Although the Inspector General agreed that contract N68936-01-D-0036 did not
    contain a quality assurance surveillance plan, he believed that the lack of a
    surveillance plan should not be construed as a lack of surveillance. The contract
    was reviewed for quality and contract compliance. The Inspector General stated
    the contracting officer’s representative provided oversight by reviewing
    contractor bi-monthly invoices, material and equipment purchases, labor use, and
    new hiring. The Inspector General noted the quarterly Award Fee Evaluation
    Board used quantitative terms to measure performance and metrics. The
    Inspector General stated in accordance with FAR Part 45, the contracting officer
    annually reviewed the contractor’s purchasing system, and the Government
    conducted audits of the contractor’s property system.

    Audit Response. We agree that the contract N68936-01-D-0036 business
    clearance memorandum stated that the contract involved a degree of uncertainty,
    but the memorandum provided no analysis. It stated only that an FFP contract
    was impractical. The business clearance memorandum also stated that the
    contract was a follow-on for the same types of effort. Because the services were
    previously provided by contract, the agency should have relied on experience
    gained, facilitating the use of FFP contracts. We agree with the Navy that the
    IGCE for contract N68936-01-D-0036 did not include an explanatory narrative or
    analysis of how applicable information from prior contracts was used to develop
    the estimate. The IGCE was also undated and unsigned and provided no
    description for the genesis of the hour mix, rates, nor any analysis of costs of
    alternative methods of meeting Government minimum requirements. Without
    such analyses and accountability, the Navy should not rely on the IGCE. As
    noted previously in the audit response regarding contract N00421-02-C-3052,
    without a surveillance plan prepared by the requiring activity, neither contracting
    personnel nor oversight officials can determine whether contract monitoring
    efforts are sufficient or whether the adequacy of the steps involved are justified.
    Although the Navy believed that adequate surveillance existed on their contracts
    without surveillance plans, we believe that the Navy should be concerned that
    none of the three contracts valued at $500 million had any sufficient written
    surveillance instructions in place.

Program Manager, Naval Undersea Warfare Center Division
  Comments on the Background and Finding and the Audit
  Response
    Navy Comments on the Background. The Program Manager stated that the
    report background section of the draft report made no mention of cost-plus-
    incentive-fee (CPIF) contracts.

    Audit Response. We added a description of CPIF contracts in the Background
    section of the final report.


                                        19
Navy Comments on Contract N66604-05-C-1277. The Program Manager
disagreed with the draft report finding that contract N66604-05-C-1277 had an
inadequate IGCE and that contracting officials did not use prior history. The
Program Manager stated that prior price history from the Atlantic Undersea Test
and Evaluation Center, Naval Undersea Warfare Center Division Newport was
taken into consideration to determine contract type and to define costs. The
Program Manager stated that contract type and costs were discussed at length at
an October 31, 2002, Atlantic Undersea Test and Evaluation Center Contract
Advisory Panel contract kickoff presentation. The discussion included a
comparative analysis of the prior contract structure with other contract options
along with risk factors associated with control, adaptability, management, and
cost.

The Program Manager stated that the Atlantic Undersea Test and Evaluation
Center used market research and appropriate quantitative techniques to develop a
reliable estimate of the new contract cost in conformance with the Defense
Procurement and Acquisition Policy-Contract Pricing Reference Guide. The
Program Manager stated that on February 3, 2003, the contracting officer
presented a review of the history of five other MRTFB contracts to help
determine the most appropriate contract type. The Program Manager also stated
that qualitative cost analysis was conducted early in the contract process and an
IGCE was developed to project the new contract costs and accompanied the
procurement request.

Audit Response. Although the Navy stated that they used discussion from the
Atlantic Undersea Test and Evaluation Center Advisory Panel contract kickoff to
determine contract types and costs, contract N66604-05-C-1277 contained the
same performance work statement, costs, and fee structure as its predecessor.
Agencies should rely on the experience gained from prior contracts to incorporate
performance-based service contracting methods that facilitate the use of fixed-
priced contracts. The contracting officer’s primary objective in pricing a contract
is to balance the contract type, cost, and profit or fee negotiated to achieve a total
result—–a price that is fair and reasonable to both the Government and the
contractor. The Navy stated that their comparative analysis included an analysis
of the prior contract structure against the risk factors associated with control,
adaptability, management, and cost. However, the Navy comparative analysis did
not provide detailed information to determine what was fair and reasonable based
on market conditions, alternatives for meeting the requirement, price-related
evaluation factors, and non-price evaluation factors related to each service.

The IGCEs received on July 20, 2005, and July 19, 2006, projected 15-year total
contract costs at $808,979,888 and $795,726,926, respectively. However, the
IGCEs were inadequate because they did not include any analysis of costs
associated with alternative methods of meeting Government’s minimum
requirements market conditions, or potential technology advancements. Both
IGCEs were unsigned, undated, and vague. Although the IGCEs included labor
categories, labor hours, direct and indirect costs, and amounts for material, they
did not provide a basis for the estimates or include judgmental factors applied or
contingencies used to develop the cost estimates. Neither of the IGCEs nor any
other document in the contract file mentioned or included any data from the



                                     20
October 31, 2002, or February 3, 2003, contracting officer presentations. None of
the documentation mentioned prior market research applicable to the contract type
or selection.




                                   21
Appendix D. Department of the Air Force
            Comments and Audit Response
   Although not required to comment, the Director, Test and Evaluation (the
   Director) provided comments for the Air Force. Summaries of the comments and
   our audit response follow. The complete text of these comments is in the
   Management Comments section of the report.

   Air Force Comments on Contract F40600-03-C-0001. The Director disagreed
   with the draft report finding that contract F40600-03-C-0001 had an inadequate
   IGCE, stating that the draft report contained an incorrect statement pertaining to
   IGCE preparation. The Director stated it used actual FY 2002 cost data from two
   previous contracts and made several adjustments to those contract amounts to
   derive estimated FY 2004 totals and totals for the remaining IGCE years.

   Audit Response. Based on Air Force comments, we revised the discussion in the
   final report regarding the IGCE for contract F40600-03-C-0001. However, the
   IGCE was still inadequate because it did not include any analysis of the costs
   associated with alternative methods of meeting the Government’s minimum
   requirements, market conditions, or potential technological advancements
   discussed in the “Defense Procurement and Acquisition Policy-Pricing Reference
   Guide” (the Guide) mentioned on pages 5 and 6 of the report.

   Air Force Comments on Contract NAS10-99001. The Director disagreed with
   the draft report finding that contract NAS10-99001 had an inadequate or missing
   IGCE and had an inadequate or missing surveillance plan. He also disagreed that
   contracting officials did not use prior history. The Director stated that an
   Air Force and National Aeronautics and Space Administration Joint Procurement
   Development Team prepared the IGCE. The IGCE was for $2.7 billion over a 10-
   year period and was based on 18 past similar National Aeronautics and Space
   Administration and Air Force contracts. The Director further stated that the
   surveillance plan dated April 1, 1999, thoroughly documented the surveillance
   process including the specific areas that required surveillance and the surveillance
   methods to be used.

   Audit Response. Contract NAS10-99001 provided mostly base operations for
   Kennedy Space Center and the 45th Space Wing, along with limited direct testing
   support. Contract NAS10-99001 consisted of several services such as health care,
   security, and custodial that could be estimated based on prior history and
   potentially contracted for on an FFP basis. We agree that the 10-year IGCE for
   NAS10-99001 totaled $2.7 billion and included a summary cost estimate by basic
   performance and option periods; however, the IGCE lacked detailed analysis or
   any supporting documentation of the factors used to determine estimated costs.

   The surveillance plan for contract NAS10-99001 described four potential
   evaluation methods including customer surveys, contractor management
   information systems, checklist-based surveillance, and direct observations.
   However, the surveillance plan did not specify how the above tasks were to be
   performed. For example, the surveillance plan did not provide a methodology to


                                       22
sample customer satisfaction surveys, process potential customer responses, or
determine the level of reliance that should be placed on the customer surveys
received. The surveillance plan did not indicate how the data in the contractor
management information systems would be assessed by the contracting officer’s
technical representative or the level of reliance that should be placed on the data
retrieved. Furthermore, the surveillance plan instructions listed documents that
could be gathered to perform the surveillance review, but made no mention the
processes used to validate data or support conforming or non-conforming
observations.

Air Force Comments on Contract FA9200-05-C-0001. The Director disagreed
with the draft report finding that contract FA9200-05-C-0001 had an inadequate
IGCE and had an inadequate surveillance plan. He also disagreed that contracting
officials did not use prior history. The Director stated that FA9200-05-C-0001
was a newly awarded contract that included costs dependent on a test and training
schedule that could not be administered in a fixed-price environment. The
Director further stated that the IGCE was prepared by the program office using
many years of past contract prices and that the award fee plan thoroughly
documented the surveillance for the contract on a semi-annual basis with interim
reports issued every 2 months.

Audit Response. The IGCE for contract FA9200-05-C-0001 was derived by
using engineering pricing and averaging of prior years’ actual costs. Nonexempt
labor rates were derived by drawing analogies to civil service wages. An average
work year of 2000 hours was used to calculate exempt employee wages for
FY 2007. An FY 2007 estimate was escalated by 3 percent per year for the
10 years of the contract term. The IGCE lacked any analysis of costs associated
with alternative methods of meeting the Government’s minimum requirements,
market conditions, or potential technology advancements mentioned in the Guide.

The Air Force could not provide us any documentation on how prior history was
used to determine contract type for contract FA9200-05-C-0001. The contract
surveillance plan lacked measurable objectives and instructions on how to
perform the necessary processes to ensure the contractor was performing
according to the terms of the contract. The surveillance plan stated that quality
assurance personnel and program managers should continuously monitor
contractor performance, but did not provide a standard to define what the
continuous monitoring would entail. Instead, the surveillance plan focused on the
process to calculate the contract award fee rather than describing how potential
contract surveillance should be conducted.




                                     23
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
Director, Acquisition Resources and Analysis
Director, Program Analysis and Evaluation
Director, Defense Procurement and Acquisition Policy
Director, Defense Test Resource Management Center
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Commander, U.S. Army Aberdeen Test Center
Commander, U.S. Army Yuma Proving Ground
Commanding General, U.S. Army White Sands Missile Range
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Commander, Naval Air Warfare Center Aircraft Division
Commander, Naval Air Warfare Center Weapons Division
Commander, Atlantic Undersea Test and Evaluation Center
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Commander, Arnold Engineering Development Center
Commander, 45th Space Wing
Commander, 46th Test Wing, Eglin Air Force Base
Auditor General, Department of the Air Force

Non-Defense Federal Organization
Office of Management and Budget




                                          24
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Finance, and Accountability,
  Committee on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform




                                        25
Under Secretary of Defense for Acquisition,
Technology and Logistics Comments




                       27
28
Assistant Secretary of Army (Acquisition,
Logistics and Technology) Comments
                                            Final Report
                                             Reference




                                            Pages 8 &
                                            9




                       29
Final Report
 Reference




Page 3




               30
     Final Report
      Reference




     Revised
     page 2 (Title
     changed to
     “Review of
     Internal
     Controls”)




     Page 4




     Page 5




31
Final Report
 Reference




Page 6




Page 4


Revised
pages 3
through 7




               32
     Final Report
      Reference




     Page 3




33
Final Report
 Reference




Page 4




Revised
page 2 (Title
changed to
“Review of
Internal
Controls”)




                34
     Final Report
      Reference




     Page 4




35
Final Report
 Reference




Pages 5
through 6




               36
37
               The United States Army Research,
               Development, and Engineering Command
               Acquisition Center Comments
Final Report
 Reference




Page 5




                                   38
     Final Report
      Reference




     Page 7




39
40
Department of the Navy (Air Systems
Command) Comments




                      41
Final Report
 Reference




Page 3




               42
     Final Report
      Reference




     Page 5




     Page 4
     Page 5




43
44
45
46
Department of the Navy Undersea Warfare
Center Comments
                                          Final Report
                                           Reference




                                          Revised
                                          Page 1




                     47
Final Report
 Reference




Pages 5
through 6




Page 5




               48
49
Department of the Air Force Comments




                     50
     Final Report
      Reference




     Revised
     page 6




     Page 5




51
Final Report
 Reference




Pages 8
through 9




               52
53
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Acquisition and Contract Management prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Richard B. Jolliffe
Bruce A. Burton
Benjamin A. Mehlman
Michael E. Simpson
Carrie J. Gravely
Shaun B. Jeffery
Gloria Parker
Bernard M. Vennemann
Christopher D. Westphal
Jillisa H. Milner
